                                                   United States Department of Justice
                                                       United States Attorney’s Office
                                                                  District of Minnesota



B. Todd Jones,
United States Attorney
Jeanne F. Cooney
                                                          News Release
Director of Community Relations
(612) 664-5611
email: jeanne.cooney@usdoj.gov


FOR IMMEDIATE RELEASE
Tuesday, October 25, 2011
WWW.JUSTICE.GOV/USAO/MN


                     Ceylon woman pleads guilty to stealing
                       $45,814 in Social Security benefits
     MINNEAPOLIS– Yesterday in federal court, a woman from the southern Minnesota
community of Ceylon pleaded guilty to stealing more than $45,000 in Social Security benefits.
Tammi Marie Palmer, age 50, pleaded guilty to one count of making a false statement for use in
determining eligibility for Social Security benefits. Palmer, who was indicted on April 12, 2011,
entered her plea before United States District Court Judge John R. Tunheim.

     In her plea agreement, Palmer admitted that on January 31, 2008, she made a false statement
to the Social Security Administration to determine if she was eligible to receive supplemental
social security income benefits on behalf of her two disabled sons. Specifically, Palmer failed to
disclose that her then-husband was living with her and was earning wages. The indictment filed
in this case alleges that Palmer was responsible for similar omissions during at least six hearings.
Those omissions are material because the benefits received were subject to household-income
limits. As a result of her false statements, Palmer obtained approximately $45,814.45 in
unentitled supplemental social security benefits between June of 2003 and January of 2009.

      For her crime, Palmer faces a potential maximum penalty of five years in federal prison.
Judge Tunheim will determine her sentence at a future hearing, yet to be scheduled. This case is
the result of an investigation by the Social Security Administration-Office of Inspector General.
It is being prosecuted by Assistant U.S. Attorney Kimberly A. Svendsen.

                                                ###
